                              Department of the Interior
                              Office of Inspector General



               AUDIT REPORT




                 U.S. Fish and Wildlife Service
              Wildlife and Sport Fish Restoration
                Program Grants Awarded to the
            State of Indiana, Department of Natural
            Resources, Division of Fish and Wildlife
           From July 1, 2004, Through June 30, 2006




Report No. R-GR-FWS-0018-2007                 July 2008
                    United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                      July 29, 2008

                                     AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Regional Manager, Eastern Region

Subject:       Audit on the U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the State of Indiana, Department of Natural
               Resources, Division of Fish and Wildlife From July 1, 2004, Through June 30,
               2006 (No. R-GR-FWS-0018-2007)

        This report presents the results of our audit of costs incurred by the State of Indiana
(State) Department of Natural Resources (Department), Division of Fish and Wildlife (Division)
under grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to
the State under the Wildlife and Sport Fish Restoration Program (the Program). The audit
included claims totaling approximately $39.8 million on 33 grants that were open during State
fiscal years (SFYs) ended June 30 of 2005 and 2006 (see Appendix 1). The audit also covered
Division compliance with applicable laws, regulations, and FWS guidelines, including those
related to the collection and use of hunting and fishing license revenues and the reporting of
program income.

       We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. However, we identified $56,788 in questioned costs due to
unsupported expenses and in-kind (non-cash) contributions. We also found the Department had
inadequate support for certain expenditures paid for with license revenue, did not report all of its
program income, had incomplete real property records, and inadequate management of its
equipment.

       We provided a draft report to FWS and the Department for a response. We summarized
the Department and FWS Region 3 responses after each recommendation, as well as our
comments on the responses. We list the status of each recommendation in Appendix 3.
        Please respond in writing to the findings and recommendations included in this report by
October 27, 2008. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

     If you have any questions regarding this report, please contact the audit team leader, Mr.
Tom Nadsady or me at 703–487–5345.

cc:   Regional Director, Region 3, U.S. Fish and Wildlife Service




                                               2
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $39.8 million on the 33 grants that were
open during SFYs 2005 and 2006 (see Appendix 1). We report only on conditions that existed
during this audit period. We performed our audit at Division headquarters in Indianapolis, IN,
and visited one fish hatchery, nine fish and wildlife areas, five public access areas, two
conservation clubs and one public fishing area (see Appendix 2). We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendment of 1996 and by
Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          3
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Division;

   •   reviewing transactions related to purchases, direct costs, indirect costs, drawdowns of
       reimbursements, in-kind contributions, and program income;

   •   interviewing Division employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Division used hunting and fishing license revenues solely for
       administration of the Division; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in them for testing. We did not project the results of the tests to the total
population of recorded transactions or evaluate the economy, efficiency, or effectiveness of
Department operations.

Prior Audit Coverage
On December 22, 2003, we issued “Costs Claimed By the State of Indiana Department of
Natural Resources, Under Federal Assistance Grants from the U.S. Fish and Wildlife Service
from July 1, 2000, through June 30, 2002” (R-GR-FWS-0021-2003). We followed up on the
status of the six recommendations in the report. Two recommendations have been resolved and
implemented. The Department of Interior, Office of Assistant Secretary for Policy, Management
and Budget (PMB) considers the four remaining recommendations resolved but not
implemented. The recommendations relate to five findings:

       1. unreported program income from barter transactions,

       2. inappropriate use of land purchased with Program grant funds,

       3. inadequate time coding by law enforcement officers,


                                                  4
       4. equipment and land purchased with Program grant funds that was not recorded as
          such in the Division inventory, and

       5. use of the cash basis of accounting.

Our current audit scope included the areas covered in the prior audit. Where conditions exist that
still need improvement, we reported them in the Findings and Recommendations section of this
report and both repeat the relevant recommendations from our prior report and make new
recommendations. Documentation on the implementation of repeat recommendations should be
sent to PMB.

We reviewed the State’s most recent SFY2006 Comprehensive Annual Financial Report and
Single Audit Report. Our review of the Single Audit Report found that the Division’s Sport Fish
and Wildlife Program grants were not considered major programs and were assessed a low risk.




                                                 5
                                      Results of Audit

Audit Summary
We found that the Division complied, in general, with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including $56,788 in questioned costs
(federal share). We discuss the findings in more detail in the Findings and Recommendations
section.

     Questioned Costs. The Division could not provide support for one expenditure for which
     they received $52,154 in federal reimbursement, and two expenditures worth $50,288 that
     were paid for with license revenue. It also could not provide adequate support for the
     number of volunteer hours that it claimed under the grant to meet the State matching share of
     grant costs, which resulted in $4,634 in questioned costs.

     Unreported Program Income From Barter Agreements and Boat Rentals. The Division
     did not report all the program income it earned from activities on lands managed with
     Program grant funds.

     Inadequate Land Management Records. The Division improperly recorded a property
     purchased with $1,117,688 in federal funds as a State-funded purchase.

     Inadequate Equipment Management. The Division did not have a comprehensive
     Division-wide inventory.

     Loss of Proceeds from Equipment Sale. During the audit period, $376,792 earned from the
     sale of Division-owned vehicles and other equipment was deposited into the State general
     fund rather than the Division Fish and Wildlife fund, as it should have been.

Findings and Recommendations

A.      Questioned Costs — $56,788

        1. Lack of Supporting Documentation for License Revenue and Program
           Expenditures — $52,154

            The Division must follow federal regulations when accounting for expenditures of
            grant funds and of revenue collected from the sale of hunting and fishing licenses.
            To test Division compliance with applicable regulations for SFYs 2005 and 2006,
            we reviewed 124 transactions that totaled $6.2 million in expenditures. The Division
            should have been able to but could not provide an original purchase order, invoice,
            or payment document for the purchase of three items worth $119,827. The Division
            paid for two of these purchases with license funds ($50,288). The Division received
            federal reimbursement for a portion of the third item, worth $69,539, under Grant

                                                 6
F-21-D-15, Statewide Hatcheries Operations. The grant required a 25 percent cost
share, so the federal portion of that expense is $52,154 ($69,539 x 75 percent).

The Code of Federal Regulations (2 C.F.R. § 225, Appendix A, C.1.j), requires that
for costs to be allowable under federal awards, they must be adequately documented.
The State of Indiana, Accounting and Uniform Compliance Guidelines Manual for
State and Quasi Agencies, commonly known as the State Accounting Manual,
Chapter 1, places responsibility on each agency to “maintain and make available for
audit, documentation supporting the validity and accountability of monies received or
disbursed.” Under 50 C.F.R. § 80.4, license revenues may be used only for fish and
game purposes.

A Department official stated that record retention has not been a high priority in the
Department, and has usually been assigned to temporary staff without adequate
oversight. We are questioning the $52,154 that was reimbursed under the grant.
Additionally, without adequate documentation for the $50,288 charged to license
revenue, we cannot ensure the Division spent the funds on the eligible game and fish
activities. We are not questioning these costs because license revenue is State
funding. However, to demonstrate compliance with federal regulations, the Division
must provide assurance they were used for fish and game purposes or repay the funds.

Recommendations

We recommend that the FWS:

1. resolve the $52,154 in questioned costs;

2. provide support for the $50,288 in expenses paid for with license revenue, or
   return that amount to the license revenue account; and

3. require the Department to strengthen its internal controls to ensure compliance
   with the State accounting manual.

Department Response

Department officials concurred with the recommendations. They stated the identity
of some expenditures was lost during account sweeps associated with the transition to
their new accounting system. They determined the $52,154 was an eligible grant
expenditure to repair a fish hatchery well. However, they had not identified the use
of the $50,288 in license revenue. Officials stated the amount may be supported after
final account balancing or would be offset with general fund expenditures. They
added that when the new accounting system transition is completed, internal controls
will be strengthened and they will be in full compliance with the State accounting
manual.




                                    7
             FWS Response

             FWS regional officials concurred with the recommendations and stated they will
             consider the Department’s proposals in the corrective action plan.

             OIG Response

             While the FWS concurred with the recommendations and the Department officials
             indicated they are taking action to address them, additional information is needed in
             the corrective action plan. In addition to the specific actions planned or taken, the
             plan should include:

                 •    targeted completion dates

                 •    titles of officials responsible for implementation, and

                 •    verification that FWS headquarters officials reviewed and approved of actions
                      taken or planned by the Department.

        2. Unsupported In-Kind Contributions — $4,634

             The Division received the Fall Creek Valley Conservation Club Shooting Range
             Grant W-32-S-14 in SFYs 2006 and 2007 for shooting range improvements. The
             Grant terms required the Division to expend 25 percent of “State matching” grant
             costs using non-federal funds. The Division claimed volunteer labor hours valued at
             $6,179 as the matching State share of grant costs. Grantees are permitted to use the
             value of such in-kind (non-cash) contributions to meet the “State matching
             requirement,” but they must adequately support the value of the contributions
             claimed. To ensure it had adequate support for the in-kind contributions claimed, the
             Division should have, but did not, require the volunteers who donated their time to
             sign a timesheet for the labor hours worked. 2

             Federal regulations (43 C.F.R. § 12.64) permit grantees to use, as the State matching
             share of costs, the value of third party in-kind contributions received during the grant
             period. When a State uses third party in-kind contributions to meet its matching share
             of expenditures, the regulations require that the contributions be verifiable from
             grantee records and that, to the extent feasible, the grantee support volunteer services
             by the same method used to support regular personnel costs. In addition, the
             Guidelines for the Department Shooting Program (page A-53) contain the State-
             specific requirements for qualified donated labor. The Guidelines require volunteers
             to sign a timesheet to verify the hours and days worked.




2
  The Division received donated labor valued at $7,230, but claimed only the portion needed to meet the matching
requirement. The Division did not have adequate support for any of the $7,230 worth of labor hours accumulated.

                                                        8
The Division expended and claimed $18,537 in cash outlays under Grant W-32-S-14.
The FWS reimbursed this amount as the federal share of grant costs. However,
because the in-kind contributions used as the State matching share of costs were
unsupported, the Division is only entitled to receive reimbursement for $13,903, or
75 percent of the cash outlays, as described in the table below.

                      Claimed       Unsupported      Revised Federal and State
                      Expenses       Expenses         Share of Cash Outlays
  Federal Share                                                $ 13,903
                       $18,537                          (75 percent of $18,537)
  State Share          $ 6,179             $6,179               $ 4,634
                      (in-kind)          (in-kind)      (25 percent of $18,537)
  Total               $ 24,716                                 $18,537
                Table 1. Summary of Questioned Costs

We are questioning $4,634, the difference between the reimbursement received and
the amount to which the Division is entitled. To be eligible to receive the full
$18,537 claimed for federal reimbursement, the Division will need to provide
additional support for the in-kind contributions claimed as the State matching share.

A Division official stated that the omission of volunteer timesheets was a mistake.

Recommendations

The FWS should work with the Division to:

1. resolve the questioned federal share of $4,634 or provide additional support for
   the $6,179 claimed in in-kind contributions and

2. establish procedures that ensure the Division accurately and adequately
   documents in-kind labor.

Department Response

Department officials concurred with the recommendations. They stated that they are
working on documenting signatures for the volunteer services received. They also
stated that they rely on the grant documents to accurately document the amount and
type of information required for volunteer services.

FWS Response

FWS regional officials concurred with the recommendations and stated they will
consider the Department’s proposals in the corrective action plan.




                                     9
        OIG Response

        While the FWS concurred with the recommendations and the Department officials
        indicated they are taking action to address them, additional information is needed in
        the corrective action plan. In addition to the specific actions planned or taken, the
        plan should include:

            •   targeted completion dates,

            •   titles of officials responsible for implementation, and

            •   verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Department.

B.   Unreported Program Income from Barter Agreements and Boat Rentals

     States may earn income using Program grant funds if the income is incidental to the grant
     activities, but they must report such “program income” earned in an agreed-upon manner.
     The Division earned program income under the grants through barter and cash
     transactions. However, Division officials failed to report the income to FWS, as
     required.

     The Division entered into barter transactions on lands within the Fish and Wildlife Areas
     (FWAs) managed and maintained with funds provided under Grants FW-22-D-37, FW-
     22-D-38 and FW-22-D-39. The barter transactions allow farmers to grow crops on
     FWAs in exchange for either leaving a portion of the crops for wildlife and/or for
     providing the Division with goods and services. The gross value of the crops, goods, and
     services should have been reported as program income, but was not. We also identified
     unreported program income from barter transactions in our last audit (Report No. R-GR-
     FWS-0021-2003).

     The Division also failed to report cash income that it earned under Grants FW-22-D-37
     and FW-22-D-38. It earned $3,256 under FW-22-D-37 and $16,429 under FW-22-D-38
     from boat rentals, but did not report this income on the final Financial Status Reports
     (SF-269s).

     Under 43 C.F.R. § 12.65, program income is gross income a grantee receives that is
     “directly generated by a grant-supported activity.” Grantees may earn such program
     income from grant-related activities, but federal regulations (50 C.F.R. § 80.14(c))
     require grantees to report such income to FWS. The FWS Manual, Section 522.19,
     Exhibit 1 provides further clarification on the types of activities the FWS considers
     program income. It includes in its list income from fees charged for using facilities
     purchased or managed with Program grant funds, income they receive from contractor
     provided services, and other income that is directly generated by a grant supported
     activity.


                                             10
Division personnel did not estimate or report program income from barter transactions
because they were following the prior audit report’s Corrective Action Plan (CAP). The
CAP stated the Division would wait to take action until the release of a FWS policy
decision regarding barter income, which was to be based on the recommendations of a
Federal-State Joint Policy Task Force. The CAP stated FWS would issue a policy and
procedure by June 30, 2008.

Division personnel did estimate program income from boat rentals and included the
estimates on the grant agreements for FW-22-D-37 and FW-22-D-38. A Division
official told us she intended to include income from boat rentals with all other program
income when she summarized and reported it on the SF-269s. However, boat rental
income was inadvertently recorded in the accounting system with a non-program income
revenue code, so it was left out of the final calculation of program income earned.

We were unable to determine the total value of barter program income, but identified
$19,685 in boat rental income for the two grants that should have been reported as
program income. We determined there was no monetary impact because the Department
spent over $400,000 more than it claimed for reimbursement under the grants. However,
proper identification and reporting of program income will help the Division and FWS
account for the income appropriately and used it for grant-related purposes, as required.

Division management agreed with the finding, and they are currently working with FWS
to identify what types of income should be reported.

We repeat one open recommendation from our prior audit and make one new
recommendation. The Department has not yet taken action to implement the repeat
recommendation. The implementation of the repeat recommendation will be tracked
under the resolution process for the prior audit report (R-GR-FWS-0021-2003).

Repeat Recommendation

We recommended in our prior audit report that the FWS require the Department to adopt
procedures to report total gross income generated by program activity and any reductions
to income (Recommendation B.1 in the prior audit report).

New Recommendation

We recommend that FWS require the Department to revise the SF-269s for the affected
grants to account for the $19,685 in unreported program income.

Department Response

Department officials stated they would continue to follow the corrective action plan for
the prior audit report for the repeat recommendation. They concurred with the new
recommendation and are working on revised SF- 269s.


                                        11
     FWS Response

     FWS officials stated the repeat recommendation has been resolved with the issuance of
     new guidelines. On February 20, 2008, an amendment to FWS Manual 522 FW19,
     Exhibit 1was issued. The amendment added a statement that cooperative farming is not
     to be considered program income.

     FWS officials concurred with the new recommendation (to revise the affected grants for
     the $19,685 in omitted program income) and stated they will consider the Department’s
     proposals in the corrective action plan.

     OIG Response

     The implementation of the repeat recommendation will be tracked under the prior audit
     report. Accordingly, the FWS should send documentation regarding the implementation
     of this recommendation to PMB. In submitting such documentation, we suggest FWS
     consider whether the new guidance cited provides adequate clarity to the States and
     regions on how to handle barter transactions. We believe the guidance does not
     adequately address the underreporting of non-cash value received by the Department as a
     result of barter transactions. The guidance cited by the FWS regional officials does not
     address barter activities for goods and services that are not directly related to farming or
     grazing activities, nor does it provide guidance on how to disclose barter transaction to
     FWS.

     While the Department officials indicated they are taking action to address the new
     recommendation, additional information is needed in the corrective action plan. In
     addition to the specific actions planned or taken, the plan should include:

        •   targeted completion dates,

        •   titles of officials responsible for implementation, and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

C.   Inadequate Land Management Records

     Federal regulations (50 C.F.R. § 80.19) require each State to maintain complete property
     records and to follow the records requirements in the Federal Aid Manual and OMB
     Circular A–102. Under 50 C.F.R. § 80.18(c), the Division is responsible for controlling
     all assets and assuring they serve the purpose for which acquired. To determine whether
     the Division has adequate controls over federally-purchased land, we compared a sample
     of land records contained in a database maintained by the FWS to those maintained by
     Division. We also reviewed supporting documentation maintained by the Division. The
     supporting records include documents such as land acquisition maps, appraisals, deeds,
     correspondence, and accounting transactions.

                                              12
     We found that one of the ten FWS land acquisitions that we tested was improperly
     recorded in the Division’s records as a State-funded purchase, rather than as an
     acquisition funded by the Program. Grant FW-23-L-11, for the grant period March 1,
     1995 to December 31, 2005, provided the funding for this improperly coded acquisition.
     Under this grant, the Division purchased a property called the Latta Mine using
     $1,117,688 in federal funds. A Division official stated that the land was recorded as a
     State funded purchased because the grant number was missing from the hard copy land
     acquisition file. We also found that the Division had not reconciled its land records with
     those maintained by FWS.

     Without accurate records the Division cannot ensure accountability and control of land
     purchased with Program grant funds.

     Recommendations

     The FWS should work with the Division to:

     1. properly record the funding source of the Latta Mine in the Division’s database and

     2. reconciles its land records with FWS records.

     Department Response

     Department officials concurred with the recommendations and stated that on February 13,
     2008 they corrected the Division’s database and have reconciled its land records with
     FWS records.

     FWS Response

     FWS regional officials concurred with the recommendations and confirmed that the
     Division identified the source of funding for the Latta Mine and had reconciled its land
     records with the FWS.

     OIG Response

     Based on the Department’s and FWS’ responses, we consider the recommendations
     resolved and implemented

D.   Inadequate Equipment Management

     To ensure States maintain control over their equipment, federal regulations (50 C.F.R. §§
     80.18 and 80.19) require each State to have adequate controls in place, as described in
     Finding C of this report. We reviewed the Division’s equipment inventory system and




                                             13
        selected a sample of 44 equipment items to test in the field. 3 We tested the equipment to
        ensure it was physically located at the site identified in the inventory and that it was
        properly identified with tags. We identified problems with the Division’s controls over
        its equipment.

        The Division maintained inventories at the field location level, but did not have an
        accurate and complete inventory of its equipment at the Division level. The Division had
        a system at one time but stopped maintaining it before it implemented a planned
        replacement system. We reported a similar condition in our last audit and recommended
        that the Division establish an asset management system that is complete and current. The
        Division has not yet developed the replacement system, and it has relied on its field
        locations to independently maintain separate inventories. As a result, the Division could
        not determine from a single document or in a timely manner what equipment is owned,
        its location, or which individuals are assigned individual pieces of equipment.
        Additionally, we found that the inventories of Division equipment that field offices
        maintained did not always identify the source of funding for each piece of equipment.
        We also reported this condition in our last audit.

        Of the 44 equipment items tested in the field, the only exception was for a boat trailer that
        had the wrong license plate on it. However, since the Division lacks a comprehensive
        inventory, it does not have information on its total assets. For example, in SFYs 2005
        and 2006, the Division used $564,150 ($473,200 in SFY2005 and $90,950 in SFY2006)
        in license funds to purchase 550 computer terminals for the sale of hunting and fishing
        licenses, and $67,000 of license funds to purchase 65 desktop computers. The Division
        has no comprehensive record of the location of these individual items, or any of the other
        items maintained by its field locations, to summarize and verify purchases made.

        The State of Indiana Accounting Manual (Chapter 10 Capital asset inventory page 10:1)
        states “The monitoring of capital assets allows the state to keep track of, and locate if
        need be, all land, infrastructure, buildings, and equipment owned by the state.” On page
        10:2, it provides guidelines for the dollar threshold for inventory items, the frequency and
        content of inventory reports, and for annual audits. However, due to the poor inventory
        controls in the Division, once equipment items are disbursed to the field, the Division has
        lost control of them.

        The prior audit’s corrective action plan established a date of September 30, 2008 for the
        recording of the Program ownership percentage in a new Statewide inventory system. A
        Division official told us they do not have a Division-wide inventory due to years of delay
        incurred trying to build a replacement system.

        The lack of inventory puts the Division at risk of losing federally and State funded
        equipment. Additionally, the total value of federal and State owned equipment cannot be
        determined.
3
  The inventory tested was valued at $483,173. As discussed in this finding, we could not determine what portion of
this inventory was purchased with Federal Assistance Program funds or license revenue, because the inventory lacks
information on the source of funding for the equipment purchase.

                                                        14
     We repeat one open recommendation from our prior audit. The Department has not yet
     taken action to implement this recommendation. The implementation of the repeat
     recommendation will be tracked under the resolution process for the prior audit report
     (R-GR-FWS-0021-2003).

     Repeat Recommendation

     We recommended in our prior audit report that the FWS monitor the Department’s
     establishment of an asset management system that provides inventory data that is
     complete and current and that identifies the funding source (Recommendation B.4 in the
     prior audit report).

     Department Response

     Department officials concurred that they did not have an accurate equipment inventory
     system and that they would continue to follow the corrective action plan for the prior
     audit.

     FWS Response

     FWS regional officials concurred with the recommendation and stated they will follow
     the prior report’s corrective action plan.

     OIG Response

     The implementation of this recommendation will be tracked under the prior audit report.
     Accordingly, FWS should send documentation regarding the implementation of this
     recommendation to PMB.

E.   Loss of Proceeds from the Sale of Equipment

     Department personnel deposited $376,792 from the sale of vehicle and other equipment
     into the State general fund. In doing so, the Department may have violated federal
     regulations that restrict the use of income from the sale of equipment purchased with
     license revenues.

     Under 50 C.F.R. § 80.4, license revenues include income from the sale of personal
     property that was originally acquired with license revenues. The regulation specifies that
     license revenues may be used only for fish and game purposes. If the revenues are
     diverted to other purposes and the FWS Director declares a diversion has occurred, the
     State may become ineligible to participate in the Program.

     The State Accounting Manual (Chapter 12 Federal Financial Assistance Programs page
     12:5) states, “The federal awarding agency, the grant agreement, and the Code of Federal
     Regulations should be consulted to determine if there are any specific requirements for
     the dispositions of equipment. In most instances, follow state policies in disposition of

                                             15
equipment.” A Department official stated the Department followed an unwritten policy
to finance an existing State equipment management system with the equipment sale
proceeds, which is in violation of its written policy to follow federal guidelines for
equipment disposition.

The Department could not tell us what portion, if any, of the $376,792 was originally
purchased with license revenues. If the Department determines any of the sold
equipment was purchased with license revenues, the proceeds from such equipment
should be deposited into the Division’s fish and wildlife fund, which contains restricted
license revenue monies. If license revenues from equipment sales are not deposited into
the fund, the FWS Director could declare a diversion of license revenue has occurred and
the Department may become ineligible to receive additional Program grant funds.

Recommendations

The FWS should require the Department to:

1. determine whether any of the equipment sold was originally purchased with license
   revenues and, if so, return it to the Division fish and wildlife fund; and

2. clarify and follow the State accounting manual so it ensures the appropriate treatment
   of income from the sale of equipment purchased with license revenues.

Department Response

Department officials concurred with the recommendations. For the first
recommendation, the Department is taking action to recover the proceeds from the sale of
equipment that was originally purchased with license revenue. For the second
recommendation, the Department stated the development of the asset management group
will provide the necessary clarification and detail to ensure program compliance in the
future.

FWS Response

FWS officials concurred with the recommendations and stated they will consider the
Department’s proposals in the corrective action plan.

OIG Response

While the FWS concurred with the recommendations and the Department officials
indicated they are taking action to address them, additional information is needed in the
corrective action plan. In addition to the specific actions planned or taken, the plan
should include:

   •   targeted completion dates,


                                        16
•   titles of officials responsible for implementation, and

•   verification that FWS headquarters officials reviewed and approved of actions
    taken or planned by the Department.




                                     17
                                                                   Appendix 1
                  DEPARTMENT OF NATURAL RESOURCES
                    DIVISION OF FISH AND WILDLIFE
               FINANCIAL SUMMARY OF REVIEW COVERAGE
                  JULY 1, 2004 THROUGH JUNE 30, 2006
                                                    UNSUPPORTED COSTS
GRANT NUMBER     GRANT AMOUNT    TOTAL OUTLAYS       (FEDERAL SHARE)
F-10-D-37           $1,948,940         $2,210,784
F-10-D-38            2,024,000          2,229,004
F-10-D-39            1,990,000          2,285,461
F-18-R-17             918,459            742,085
F-21-D-14            2,183,000          2,179,068
F-21-D-15            2,089,000          2,092,019        $52,154
F-21-D-16            1,990,000          1,870,853
F-24-E-9              241,878            240,281
F-24-E-10             372,582            295,746
F-24-E-11             353,873            295,061
F-26-L-1              243,250            243,250
FW-14-C-51            132,530             89,333
FW-14-C-52            132,530            108,493
FW-14-C-53            120,100            109,333
FW-21-D-37           1,094,000          1,115,756
FW-21-D-38           1,110,000           956,641
FW-21-D-39            985,000            843,705
FW-22-D-37           3,989,449          4,204,173
FW-22-D-38           4,097,401          4,230,306
FW-22-D-39           4,011,721          4,161,490
FW-26-T-14            393,814            359,698
FW-26-T-15            414,726            399,907
FW-26-T-16            414,726            367,926
FW-28-D-3            1,824,325          1,548,290
FW-28-D-4             230,000            197,163
FW-28-D-5             800,000            800,000
FW-28-D-6            1,132,000          1,378,605
FW-28-D-7            5,049,100          3,268,701
W-26-R-36             585,197            676,268
W-32-S-11             217,333            217,383
W-32-S-12              52,000             54,043
W-32-S-13             127,000                  0
W-32-S-14              24,730             25,767           4,634
TOTAL              $41,292,664        $39,796,593        $56,788

                                 18
                                             Appendix 2

INDIANA DEPARTMENT OF NATURAL RESOURCES
       DIVISION OF FISH AND WILDLIFE
               SITES VISITED

                Headquarters

                  Indianapolis

            Fish and Wildlife Areas

                   Atterbury
                    Crosley
                   Glendale
                  Hillenbrand
                  Minnehaha
                 Pisgah Marsh
                  Tri-County
                 Wilbur Wright
                   Winamac

                    Other

      Falls Creek Valley Conservation Club
            Mixsawbah Fish Hatchery
        Wells County Conservation Club

             Public Access Areas

                 Crystal station
                   Engle Lake
                 Koontz Lake
                    Old Lake
                St. Joseph River

             Public Fishing Area

                 Brownstown




                      19
                                                                                Appendix 3

              INDIANA DEPARTMENT OF NATURAL RESOURCES
                     DIVISION OF FISH AND WILDLIFE
           STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                   Status                           Action Required
C.1 and C.2          Resolved and implemented              No further action required

A1.1, A1.2, A1.3,    FWS management concurs with           Additional information is needed
A2.1, A2.2, new B,   the recommendations, but              in the corrective action plan,
E.1, and E.2         additional information is needed as   including the actions taken or
                     outlined in the “Actions Required”    planned to implement the
                     column                                recommendations, targeted
                                                           completion date(s), the title of
                                                           official(s) responsible for
                                                           implementation, and verification
                                                           that FWS headquarters officials
                                                           reviewed and approved of actions
                                                           taken or planned by the State. We
                                                           will refer recommendations not
                                                           resolved and/or implemented at
                                                           the end of 90 days (after
                                                           October 27, 2008) to the Assistant
                                                           Secretary for Policy, Management
                                                           and Budget (PMB) for resolution
                                                           and /or tracking of
                                                           implementation.

Repeat B and D       Repeat Recommendations B.1 and        Provide documentation regarding
                     B.4 from our prior report (R-GR-      the implementation of these
                     FWS-0021-2003). PMB considers         recommendations to PMB.
                     these recommendations resolved
                     but not implemented.




                                         20
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
